OIG Investigative Reports, Embezzlement, Theft Charges against Barton County Basketball Coach Top Wichita Grand Jurt Indictments
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Wichita, KS Press Release May 4, 2005
FOR IMMEDIATE RELEASE
May 4, 2005
U.S. Department of Justice
United States Attorney
District of Kansas
Eric Melgren, U.S. Attorney
1200 Epic Center
Wichita, Kansas 67202
Contact: Jim Cross
Tel: (316)269-6481
Fax: (316)269-6484
EMBEZZLEMENT, THEFT CHARGES AGAINST BARTON COUNTY BASKETBALL COACH TOP WICHITA GRAND JURY INDICTMENTS
Superceding indictments update charges against Cheever, Ary
WICHITA, KAN. – United States Attorney Eric Melgren announced that a total of 15 people were indicted May 3, 2005, by a federal grand jury in Wichita, Kan. Those indicted include:
David L. Campbell, 64, Great Bend, Kan., who is a basketball coach at Barton County Community College. He is charged with one count of embezzlement from a student assistance program; and one count of theft from programs receiving federal funds. The crimes are alleged to have occurred Aug. 25, 2003, through Feb. 21, 2005, in Barton County, Kan.
According to the indictment, Campbell prepared and aided and abetted the preparation of false time sheets under the Federal Work Study Program that resulted in payment of federal funds to student athletes by Barton County Community College. The second count charges that while he was an agent and employee of Barton County Community College Campbell illegally caused student employment funds to be paid to students who were not entitled to them.
If convicted, he faces a maximum penalty of five years in prison and a $20,000 fine on the charge of embezzlement from student assistance programs; and 10 years and a $250,000 fine on the charge of theft from programs receiving federal funds. The case was investigated by the U.S. Department of Education and the U.S. Postal Service.
Top
Printable view
Share this page
Last Modified: 07/13/2007
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov